OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/IRAQ’S
LOCAL GOVERNANCE
ACTIVITIES


AUDIT REPORT NO. E-267-06-003-P
July 10, 2006




BAGHDAD, IRAQ
Office of Inspector General



      July 10, 2006

      MEMORANDUM

      TO:                      USAID/Iraq Acting Mission Director, Don J. Brady
                               USAID/Iraq Acquisition and Assistance Office
                                 Director, Catherine M. Moore

      FROM:                    Acting Regional Inspector General/Baghdad, Terry Youngblood /s/

      SUBJECT:                 Audit of USAID/Iraq’s Local Governance Activities
                               (Report No. E-267-06-003-P)

      This memorandum transmits our final report on the subject audit. In finalizing the report,
      we considered your comments on the draft report and have included them in their entirety
      as Appendix II.

      The report contains five recommendations for corrective action. In your written
      comments, you have concurred with Recommendations Nos. 1 through 4 and described
      actions the Mission has taken or plans to take to address the auditors’ concerns. Based
      on your comments, we consider that management decisions have been reached on
      Recommendations Nos. 1 and 2. Please coordinate final action with USAID’s Audit,
      Performance and Compliance Division. Management decisions for Recommendations
      Nos. 3 and 4 can be recorded when USAID/Iraq has developed a firm plan of action, with
      target dates for implementing the recommendations. In this regard, please advise us in
      writing within 30 days of the actions planned to implement these recommendations.

      You did not concur with Recommendation No. 5, but based on your comments and
      documentation provided, we consider that a management decision has been reached
      and that final action has been taken.

      I want to express my sincere appreciation for the cooperation and courtesy extended to
      my staff during the audit.




U.S. Agency for International Development
USAID/IRAQ/RIG
APO, AE 09316
CONTENTS
Summary of Results ......................................................................................................... 1

Background ...................................................................................................................... 2

Audit Objective .................................................................................................................... 3

Audit Findings ................................................................................................................... 4

   Contract Terms Should Be Enforced for
   All Reporting and Monitoring Requirements ................................................................... 4

   Grants Should Be Properly
   Approved by Mission Personnel...................................................................................... 7

   Evaluations of Contractor’s Performance
   Need to Be Completed.................................................................................................... 7

   Payment Vouchers Should Be Reviewed ....................................................................... 8

Evaluation of Management Comments ......................................................................... 10

Appendix I – Scope and Methodology .......................................................................... 12

Appendix II – Management Comments ......................................................................... 14
SUMMARY OF RESULTS
The Regional Inspector General in Baghdad, Iraq conducted this audit to determine
whether USAID/Iraq’s local governance activities achieved their intended outputs (page
3).

We could not determine if USAID/Iraq’s local governance activities achieved their
intended outputs because USAID/Iraq did not require Research Triangle Institute (RTI)
International to submit all reporting and monitoring documents specified in the contract
(see pages 4 - 6). Furthermore, USAID/Iraq did not properly approve all rapid response
grants, prepare contractor performance evaluations, or review payment vouchers
submitted by RTI (see pages 7 - 9).

This report includes five recommendations to assist USAID/Iraq in more fully monitoring
the progress and accomplishments of follow-on local governance program activities (see
pages 6, 7, 8, and 9). Mission management agreed with Recommendations Nos. 1
through 4, but they disagreed with Recommendation No. 5. Management decisions were
reached on Recommendations Nos. 1 and 2. Management decisions have not been
made for Recommendations Nos. 3 and 4. While Mission management did not concur
with Recommendation No. 5, based on their comments and documentation provided, it
was determined that a management decision had been reached and that final action had
been taken.

Management comments are included in their entirety (without attachments) in Appendix
II.




                                                                                      1
BACKGROUND
Iraq has a long history of centralized governance. After the overthrow of the Iraqi
monarchy and the establishment of the Revolutionary Command Council in 1958, a
centralized, dictatorial regime ruled the country. Furthermore, with the imposition of
sanctions in the 1990s, Iraq’s lack of contact with the outside world and insufficient
exposure to new management practices, technologies, and processes further impeded
services reaching the local level. Municipal services in most cities, including Baghdad,
seriously deteriorated before Saddam Hussein’s regime was overthrown in 2003. In
addition, following the end of the conflict in March 2003, considerable damage to
infrastructure occurred as a result of widespread looting and sabotage.

Local governance in postwar Iraq is in a transitional phase; it has emergent structures,
processes, and capabilities to serve citizens, but understanding mechanisms for
transparency and accountability and involvement of citizens in local government still has
to take place. Without effective local government, it is difficult for the Iraqi people to
rebuild and create prosperous communities.

USAID/Iraq’s local governance program was implemented by Research Triangle Institute
(RTI) International from March 2003 through May 2005. When the program began, Iraqi
institutions were virtually unable to provide basic services such as water, sewer,
electricity, and solid waste collection and disposal. Therefore, during the initial year, the
local governance program focused on (1) restoring basic services through the use of
rapid response grants, (2) developing transparent and accountable local and provincial
governments by providing technical assistance, and (3) strengthening civil society
organizations by providing training. The second year of the program focused on
facilitating Iraq’s transition to a sovereign state, with an emphasis on institutional
capacity building to enable local governments to take responsibility for providing services
to citizens effectively and efficiently.

The local governance program had total obligations and disbursements of approximately
$242 million and $240 million, respectively (as of January 31, 2006). Of the amount
disbursed, approximately $57 million was spent in Iraq for program-related goods and
services, including the rapid response grants. Funds were also disbursed for security
and other support services ($55 million) and vehicles and other property ($17 million). In
addition, there were expenditures related to contractual obligations such as overhead,
general administrative costs and profit ($55 million), and subcontracts and other direct
costs ($56 million).




                                                                                           2
AUDIT OBJECTIVE
As part of the fiscal year 2006 annual audit plan and because of the importance of the
local governance program, the Regional Inspector General in Baghdad, Iraq conducted
this audit to answer the following objective:

   •   Did USAID/Iraq’s local governance activities achieve their intended outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                      3
AUDIT FINDINGS
We could not determine if USAID/Iraq’s local governance program activities achieved
their intended outputs because the Mission did not enforce the contract requirements
that Research Triangle Institute (RTI) International submit quarterly work plans and
semi-annual performance monitoring reports which were to include interim and final
targets. 1

As shown in its final report to USAID/Iraq, under the local governance program RTI
carried out many activities in all 18 governorates throughout Iraq. For example, it
reported program accomplishments such as:

      •   forming or strengthening approximately 745 councils at various levels of
          government and within communities;

      •   training more than 20,000 council members;

      •   rehabilitating schools, health clinics, city office buildings, and community centers;
          and

      •   conducting over 20,000 civic dialogue program events (dialogues, lectures, and
          town hall meetings) covering various topics such as elections, human rights, and
          democracy that reached approximately 750,000 Iraqi citizens.

Nevertheless, without relevant work plans setting forth intended outputs and associated
milestones and without periodic monitoring reports, USAID/Iraq could not be sure if
contract activities were actually contributing to the intended outputs and, ultimately,
program results. In addition, USAID/Iraq (a) did not always properly approve the rapid
response grants, (b) did not prepare annual contractor performance evaluations as
required by the Federal Acquisition Regulation, and (c) did not review payment vouchers
submitted by RTI. The following sections discuss these issues.

Contract Terms Should Be Enforced for
All Reporting and Monitoring Requirements
    Summary: USAID/Iraq did not require RTI to submit all reporting and monitoring
    documents specified in the contract. The contract terms called for RTI to submit
    quarterly work plans and semi-annual performance monitoring reports detailing
    benchmarks toward achieving performance indicators and results, but RTI did not
    submit these plans and reports. The Mission did not enforce all contract terms
    due to staffing-related challenges during contract implementation. As a result, the
    audit team was not able to determine if intended outputs were accomplished.


1
    The performance monitoring plan required by the contract is analogous to the performance
    management plan cited in USAID’s Automated Directives System (ADS); the former is the term
    used prior to 2002. RTI submitted the required plan but titled it a performance measurement
    plan.

                                                                                             4
Requirement for quarterly work plans - USAID/Iraq’s contract with RTI required RTI to
submit quarterly work plans. Instead of submitting the required quarterly work plans, RTI
submitted an implementation plan, dated August 2003, which listed selected core
activities to be accomplished within the contract period. For the second program year,
RTI submitted a work plan, dated July 2004, which included a set of intended outputs
and indicators. Although both plans were provided to USAID/Iraq, there is no
documentation that either of RTI’s plans was approved by the Mission’s cognizant
technical officer. Furthermore, the intended activities changed during the course of the
program. Some changes were due to a change in program priorities, and some changes
were due to a deteriorating security situation. As RTI noted in its June 2005 final report
on the program, the security situation restricted team movements, and lockdowns
became more frequent beginning in November 2003. RTI reported that the violence
following an uprising in April 2004 had devastating effects on its staff deployment and
program activities. At one point most of RTI’s international employees were evacuated
from Iraq.

Although RTI submitted the required monthly reports on activities undertaken during the
month, the reports did not provide information on program implementation in a format
that allowed the Mission to measure progress against pre-defined intended outputs.
Rather, the monthly reports merely described what was accomplished during the period,
without considering progress toward intended outputs. For example, as discussed in
one monthly report, RTI initiated a civic dialogue program (consisting of dialogues,
lectures, and town halls meetings) to engage the Iraqis in the political process. By the
end of the first year, approximately 1,450 democracy dialogue events had been
conducted, reaching roughly 100,000 people, of whom 10 percent were sub-national
government officials. While these dialogue events were within the contract scope of
work, they were not specifically included as a work objective in the implementation plan.
In this instance, the audit team could only conclude that activities had taken place but
not whether intended outputs were achieved.

USAID/Iraq staff did not enforce all contractual requirements due to staffing-related
challenges during the implementation period. The Mission itself was in transition, and
daily operational requirements were emphasized in lieu of administrative requirements.
A typical staff assignment was for one year or less, and this contributed to inefficiencies
and lapses in program management. Furthermore, during the two years of the local
governance program, three contract officers and five cognizant technical officers worked
for varying lengths of time on the contract.

Nevertheless, Automated Directives System (ADS) Chapter 202.3.6 states that a major
task of cognizant technical officers is to monitor the quality and timeliness of outputs
because outputs are critical to achieving results. Without updated, approved quarterly
work plans that also incorporated milestones for measuring the program’s progress, and
without progress reports that tracked progress against these milestones, it was not
possible to gauge whether program activities were conducted in a manner that enabled
RTI to reach intended outputs.




                                                                                         5
Although the original local governance program has ended, there is a follow-on local
governance program being implemented by RTI, and the contract for that program
contains similar requirements.       Accordingly, we are making the following
recommendation:

   Recommendation No. 1: We recommend that USAID/Iraq require Research
   Triangle Institute International to submit quarterly work plans that include
   intended outputs and associated milestones.

Requirements for monitoring plan and reports - USAID/Iraq’s contract with RTI also
required the contractor to submit a performance monitoring plan and semiannual
performance monitoring reports. Both the monitoring plan and the format for the
monitoring reports were to be approved by USAID/Iraq. In brief, the monitoring plan was
to include:

   •   the methodology on how data would be collected,
   •   interim and final targets, and
   •   a timeline for collecting data.

The semiannual reports were to detail benchmarks toward achieving results, the data
collected, and the method of collection. The first report was to be submitted no later
than October 30, 2003, with subsequent reports submitted semiannually.

As required by the contract, RTI developed a performance measurement [monitoring]
plan dated September 2003, but it was unclear whether USAID/Iraq approved the plan.
RTI did not submit the required semiannual performance monitoring reports. Such
reports should include new performance information as programs develop and evolve
and would be the means for updating the performance plan. For the second year of
program implementation, RTI submitted a work plan dated July 2004. This plan included
a set of intended outputs and indicators, but the information did not readily correspond to
the outputs in the September 2003 performance plan. Even though the work plan
included updated activities and outputs, RTI did not use the information to update the
performance measurement plan to reflect the revised objectives.

For its part, USAID/Iraq did not require RTI to update the performance measurement
plan to incorporate program changes and results. In addition, Mission staff did not
require RTI to submit semi-annual performance monitoring reports showing progress
toward targets set by the indicators. This occurred due to oversights caused by the
temporary nature of Mission staffing, where a typical assignment at the Mission was one
year or less. RTI reported on activities in monthly reports by region and objectives, and
assumed that it was meeting the contract requirements.

In the absence of semiannual performance monitoring reports, the auditors reviewed
RTI’s monthly progress reports in an attempt to determine if progress had been made
toward intended outputs. However, the differences in detail and format between the
monthly reports and the performance and work plans precluded us from making this
determination. As a result, USAID/Iraq had no assurance that the local governance
program activities achieved the intended outputs.




                                                                                         6
The contract for the initial local governance program has ended, but because of the
follow-on contract we are making the following recommendation:

   Recommendation No. 2: We recommend that USAID/Iraq require Research
   Triangle Institute International to submit semi-annual performance monitoring
   reports in accordance with contract requirements and that the performance
   measurement plan be revised when program objectives are changed.

Grants Should Be Properly
Approved by Mission Personnel
According to the contract with RTI, as well as ADS 302.5.6, USAID/Iraq was to be
significantly involved in establishing selection criteria and had to approve the actual
selection of grant recipients. During the two years of program implementation, the local
governance program approved 224 rapid response grants, totaling approximately $17.3
million. The grants, which ranged in value from approximately $300 to $250,000, were
used to restore essential services and supported activities in areas such as local
government, education, health, electricity, water, and civil society. However, USAID/Iraq
did not always approve the grants as required by the contract and the ADS.

In order to verify if authorized Mission staff approved the grants as required, we
statistically selected 61 grants (valued at $9.0 million). Tests revealed that 33 grants
(valued at $4.9 million) were not approved as required. For example, 30 grants were
approved by Mission employees who did not have formal delegated approval authority
while 3 grants did not have evidence of any USAID approval. Based on this sample, the
audit team projected that $9.4 million in grants were not approved by Mission personnel
as required. The audit team also confirmed that the 61 grants had the required RTI
approvals and met the selection criteria.

Because of the quick turnaround requirements for the rapid response grants and the
constraints due to staffing and security challenges, the grants were not always approved
in accordance with the contract and USAID requirements. Since the selection and
approval of grants are significant events that can impact overall contract success and
program results, it is important that authorized Mission staff be involved in the process.
The exclusion of such staff poses a risk to the success of the individual grants and of the
overall contract. Consequently, we are making the following recommendation:

   Recommendation No. 3: We recommend that USAID/Iraq establish procedures
   to ensure that grants under contracts are approved by authorized Mission
   personnel.

Evaluations of Contractor’s Performance
Need to Be Completed
According to ADS 302.5.9, it is USAID policy that contracts in excess of $100,000 must
be evaluated at least annually for contracts exceeding one year in duration and upon
completion of activities, as required by section 42.1502 of the Federal Acquisition
Regulation. USAID/Iraq did not evaluate RTI’s performance because the contracting
office had not developed specific procedures or assigned responsibility to staff to ensure


                                                                                         7
that evaluations were completed. The contracting officer stated that several cognizant
technical officers were assigned to the contract during the two-year period of
performance and therefore were not fully aware of activities conducted by the contractor
at the time an interim and a final evaluation should have been completed. For example,
one cognizant technical officer was assigned to the contract in July 2004—more than
three months into the second evaluation period. Consequently, this officer did not feel
comfortable about completing an evaluation for the entire two-year period.

Because past performance evaluations may be used to support future contract award
decisions, not completing contractor performance evaluations can potentially result in
awarding future contracts to poor past performers. To ensure that RTI’s performance is
documented for the follow-on local governance program in accordance with USAID
policy, we are making the following recommendation:

   Recommendation No. 4: We recommend that USAID/Iraq/Office of Acquisition
   and Assistance adopt procedures to ensure that contractor performance
   evaluations are prepared as required by the Federal Acquisition Regulation and
   USAID’s Automated Directives System.

Payment Vouchers
Should Be Reviewed
USAID’s Guide for Managers and Cognizant Technical Officers emphasizes that the
cognizant technical officer should review, analyze, and evaluate the contractor’s
progress, performance, and compliance with technical, price, and schedule provisions of
the contract. RTI’s expenses were paid through a letter of credit arrangement and
therefore did not require administrative approval for payment. Nevertheless, the
cognizant technical officer was still responsible for reviewing and comparing the monthly
progress reports to the corresponding payment vouchers to determine the
reasonableness of the incurred costs with respect to the activities undertaken. The audit
team found no evidence, however, that the various cognizant technical officers assigned
to the RTI contract performed such reviews.

Due to staffing challenges during the contract implementation period and the workload,
daily operational requirements took precedence, and payment vouchers were not
reviewed when payments were made under letters of credit. While there was no
requirement for an administrative approval for payment, monitoring of programmatic and
financial aspects of the contract is essential for program success. Specifically, all
payment vouchers, including those where payment is made under a letter of credit,
should be reviewed to ensure that they accurately reflect the work completed during the
period in accordance with the requirements of the contract. Without such reviews, there
was no assurance as to the reasonableness of the approximately $240 million
disbursement made to RTI.




                                                                                       8
Proper review of payment vouchers is a significant event that can impact overall contract
performance. Therefore, we are making the following recommendation:

   Recommendation No. 5: We recommend that USAID/Iraq establish procedures
   to ensure that vouchers submitted by contractors and grantees are reviewed for
   accuracy and reasonableness in comparison to the work performed.




                                                                                       9
EVALUATION OF
MANAGEMENT COMMENTS
In commenting on our draft report, USAID/Iraq agreed with Recommendations Nos. 1
through 4, but did not concur with Recommendation No. 5. USAID/Iraq’s response to
each of the five recommendations is evaluated below.

In response to Recommendation No. 1, Mission management modified the contract to
require (1) quarterly implementation plans that include an activity-based budget for each
of the significant activities designated in the contract and (2) the contractor to submit
quarterly activity reports that include a report of expenditures, by activity, as compared to
the activity-based budget. Based on the response, we consider the recommendation to
have received a management decision. However, the contractor has failed to provide the
required quarterly implementation plans and the quarterly activity reports.

Regarding Recommendation No. 2, Mission management modified the contract to
require the contractor to submit semi-annual performance monitoring reports on
December 10 and June 10 of each year and added language which would allow
revisions to the performance measurement plan as necessary. Furthermore, the
Mission provided a copy of the draft performance monitoring plan (PMP) for the base
year dated November 2005 which is expected to be finalized after the Mission’s overall
PMP for its new strategic framework (2006 - 2008) is approved. We consider the
recommendation to have received a management decision. However, the contractor has
failed to submit semi-annual performance monitoring reports as required by the contract.

Therefore, determination of final action for Recommendations Nos. 1 and 2 will be made
by the Audit, Performance and Compliance Division (M/CFO/APC).

Concerning Recommendation No. 3, Mission management modified the contract to the
effect that all grants exceeding $250,000 and any amendments to existing grants shall
be approved by the Administrative Contracting Officer (ACO). Further, the contractor’s
grants manual will be approved by the ACO and incorporated by reference into the
contract. Mission management also stated no funds will be transferred from the
contractor account to host government or state-owned enterprises under LGP II
program. However, the Mission’s response did not address the approval of grants under
contracts when the grants are less than $250,000. According to ADS 302.5.6, the actual
selection of grant recipients under contracts must be approved by USAID; this
requirement is not limited to grant exceeding $250,000. Therefore, we do not consider
the recommendation to have received a management decision.

For Recommendation No. 4, Mission management stated that USAID/Iraq/Office of
Acquisition and Assistance (OAA) has requested and Executive Office has agreed to
revise the end-of-assignment checkout list to add a section on contractor performance
evaluations, which has to be signed off by the OAA as a means to ensuring compliance
in this area. In addition, to correct the deficiency, the Mission has prepared the
contractor performance report for the period May 2005 to May 2006. We do not
consider the recommendation to have received a management decision. An internal


                                                                                          10
OAA procedure to ensure the completion of the contractor performance evaluations
would be more effective. The end-of-assignment checkout list may be sufficient in
identifying deficiencies with respect to contractor performance evaluations. However, it
would not ensure that the evaluations are completed in a timely and proper manner.

In response to Recommendation No. 5, Mission management disagreed with our
recommendation and stated that: (1) it would not be necessary to establish Mission-
specific procedures given that cost principles of FAR Part 31.2 already applies to the
contract; (2) the contract had been modified to require a SF-1034, detailing items billed
as direct costs during the report period (prior to this modification, the contractor use the
SF-269 to obtain funds through a letter of credit arrangement rather than on a
reimbursement purposes); and (3) the contractor has been providing financial
statements since the modification. The Mission provided documentation demonstrating
that submitted vouchers were being reviewed. Based on the actions taken and our
review of the documentation provided, we consider that final action is complete on
Recommendation No. 5.




                                                                                         11
                                                                             APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General in Baghdad conducted this audit in accordance with
generally accepted government auditing standards to determine if USAID/Iraq’s local
governance activities under the Research Triangle Institute (RTI) International contract,
EDG-C-00-03-00010-00, achieved their intended outputs. Overall, the audit evaluated
the Mission’s management controls to ensure that all aspects of monitoring were aligned
toward making certain that the intended outputs were achieved. In assessing controls,
we emphasized financial controls as well as controls over monitoring and reporting of
program results.

As of January 31, 2006, the local governance program had total obligations of $242
million and total disbursements of $240 million. We judgmentally selected reported
activities for substantive testing. In addition, we reviewed 19 approved rapid response
grant files maintained by the Mission to determine whether the cognizant technical
officers were managing activities in accordance with the requirements of the Automated
Directives System (ADS) Chapter 303, “Grants and Agreements to Non-Governmental
Organizations,” and cognizant technical officer designation letters.          For grants’
management controls and site visits, we judgmentally selected 11 grants from RTI’s
grant closeout report dated March 2005 but were only able to visit four grantees due to
security concerns. Overall, RTI reported 224 grants with a total value of $17.3 million.

RIG/Baghdad performed the audit with fieldwork mainly taking place at USAID/Iraq. In
addition, we conducted fieldwork at the RTI compound in the International Zone, at the
RTI Regional Offices in Baghdad and Hillah, and at various project sites in the Baghdad
and Hillah regions. The audit fieldwork was conducted from October 6, 2005, through
February 16, 2006.

In planning and performing the audit, we assessed management controls pertaining to
review and approval of key programmatic and financial documents and adequacy of
oversight of RTI activities as evidenced by correspondence and documentation of site
visits and key meetings. Specifically, we reviewed and evaluated (1) base year (March
2003 – March 2004) and final (June 2005) reports, (2) the Rapid Response Grant
Management Plan, (3) the performance measurement plan, (4) implementation and work
plans for the base and the option year, respectively, (5) contractor-submitted vouchers,
(6) monthly progress and financial reports, and (7) incurred cost audits of the contract by
the Defense Contract Audit Agency.

Methodology
To answer the audit objective, we reviewed pertinent laws and regulations such as those
found in the ADS, the program requirements as defined by RTI contract EDG-C-00-03-
00010-00 and associated implementation and work plans. We interviewed present and
past cognizant technical officers and other key Mission staff in financial, acquisition, and
program domains. In addition, we interviewed key programmatic and financial staff of the
implementing partner to gain perspective on the activities as they were implemented.


                                                                                         12
                                                                             APPENDIX I


Based on our assessment of Mission’s management controls with respect to monitoring,
we judgmentally selected 38 program activities by intermediate results and regions for
substantive testing to determine the accuracy and consistency in reporting to gain
assurance that the reported activities and projects were reported in a factual and realistic
manner. Our review compared reported information in the final and monthly reports and
ultimately compared these reported results to source documentation, which included
training documentation, attendance records, consultant reports, and grant closeout
reports. In addition, as permitted by the security situation, we conducted site visits to
four grants and attended provincial council meetings and training sessions in Baghdad
and Hillah to gain additional confidence on the reported results. Our review and
observations did not reveal significant discrepancies between the reported results and
the evidence produced by source documentation.

To assess overall controls over the grant program, we reviewed RTI’s final closeout
report and judgmentally selected 11 grants with expenditures of $100,000 and above for
detailed testing. In addition, we selected a statistical sample of 61 of the 224 approved
grants to determine if an authorized staff member from the Mission approved the grants
as required.

In assessing data quality and verifying and validating the performance data to source
documentation, we used a materiality threshold of 1 percent for transcription accuracy
and 5 percent for computation accuracy.




                                                                                         13
                                                                                 APPENDIX II



MANAGEMENT COMMENTS
MEMORANDUM
TO:                     Nancy Lawton, Regional Inspector General, Iraq
FROM:                   Don Brady, Acting Mission Director
SUBJECT:                Comments on RIG/Iraq’s Draft Audit of USAID/Iraq’s Local
                        Governance Program I (LGP I) - Report No. E-267-06-00X-P
DATE:                   June 11, 2006

I am pleased to provide the Mission’s response to the five recommendations contained in the draft
report.

General Comments:

The Mission appreciates the opportunity to comment on the draft audit report which made
five recommendations, which we would like to address. Prior to the Audit, the Mission
recognized the need to strengthen management oversight of its overall Program. Currently the
LGPII is managed by a seasoned FS officer with support from the FSN Activity Manager and
two other CTOs who were hired in May 2005 to manage other DG Programs. This increase in
staff has given the Mission the ability to greatly improve project management oversight.

Recommendation No 1: We recommend that USAID/Iraq require Research
Triangle Institute International to submit quarterly work plans that include intended
outputs and associated milestones.

            ¾ Response: Agree. Following a mid-point audit review meeting with the RIG
              auditors the Cognizant Technical Officer for LGP sent a letter on February 2006
              (Attachment 1) to RTI to remind them that their work plans are to be submitted
              quarterly and are to include outputs and associated milestones based on USAID
              requirements and those of the Provincial Reconstruction Teams (PRTs).
              Subsequent work plans are to be submitted on a quarterly basis and will include
              input from PRT work plan updates.
            ¾

Recommendation No 2: We recommend that USAID/Iraq require Research
Triangle Institute International to submit semi-annual performance monitoring reports
in accordance with contract requirements and that the performance measurement
plan is revised when program objectives are changed.

Response: Agree. In modification #2 dated October 11, 2005 (Attachment 2), language was
added to the contract, under section F.4, page 23 as follows: “semi-annual performance
monitoring report: add: The semi-annual performance monitoring report will be due
December 10 and June 10 of each year.” In this regard, in December 2005, RTI prepared a
draft Performance Monitoring Plan (PMP) for LGP II (Attachment 3). This document will be
finalized once USAID’s overall PMP for its new strategic framework (2006-2008) is



                                                                                               14
                                                                                APPENDIX II

approved. Further, USAID/Iraq required RTI to participate in the Mission-sponsored
weeklong PMP workshop in May 2006 to provide input in the development of the SO-9
PMP.

Recommendation No. 3: We recommend that USAID/Iraq establish procedures to ensure
that grants under contracts are approved by authorized Mission personnel.


           ¾ Response: Agree. In the event that grants are provided under the LGPII
             program, modification #5 (Attachment 4), Section C. added language to the
             contract to the effect that all grants exceeding $250,000 and any
             amendments to existing grants shall be approved by the Administrative
             Contracting Officer (ACO). Further that the ACO shall approve RTI’s
             grants manual prior to award of any grants hereunder, and once approved,
             the grants manual shall be considered to be incorporated by reference to this
             contract.

           ¾ Regarding the above, Attachment 1, informed RTI that its ‘Learning by
             Doing Grants” program under LGP II is not a grants program per se, in that
             no funds will be transferred from the RTI account to host government or
             state-owned enterprises. The USAID Office of Acquisition and Assistance
             (OAA) will amend the contract to reflect this language.

Recommendation No 4: We recommend that USAID/Iraq/Office of Acquisition and
Assistance adopt procedures to ensure that contractor performance evaluations are
prepared as required by the Federal Acquisition Regulation and USAID’s Automated
Directives System.

           ¾ Response: Agree, with the stipulation that this be a joint responsibility of OAA
             and the SO-9 team. To be responsive to this recommendation, OAA has
             requested and EXO has agreed to revise the end-of-assignment checkout list to
             add a section on “contractor performance evaluation (CPE)” which has to be
             signed off by the OAA as a means of ensuring CPE compliance. In addition, the
             SO-9 Team has worked to correct this deficiency internally and has prepared the
             Performance Report for the period May 2005 to May 2006 (Attachment 5).

Recommendation No. 5: We recommend that USAID/Iraq establish procedures to ensure
that vouchers submitted by contractors and grantees are reviewed for accuracy and
reasonableness in comparison to the work performed.

Response: Disagree. It is not necessary to establish Mission-specific procedures because the
cost principles of FAR Part 31.2 already apply and the LGPII contract includes this under
52.21.y.

           ¾ Prior modification #2 (Attachment 2), RTI used the SF-269 to obtain funds
             which was paid in Washington through a letter of credit rather than on a
             reimbursement basis by the Mission. Modification #2, added the following
             language to section G.7 – Supplemental Documentation for Payment
             Requirements, “SF-1034 – the Contractor shall attach to each SF-1034 submitted,




                                                                                               15
                                                                                APPENDIX II

                detailed documentation from the contractor’s accounting system to support the
                items billed as direct costs during the report period……”

RTI has since provided monthly financial statements since that time that have been reviewed by
the SO-9 CTO or Activity Manager. Attachment 6 includes e-mails and the monthly sign in
sheets which demonstrate that the SO9 team is complying with this recommendation.




                                                                                                16
U.S. Agency for International Development
       Office of Inspector General
       1300 Pennsylvania Ave, NW
          Washington, DC 20523
           Tel: (202) 712-1150
           Fax: (202) 216-3047
           www.usaid.gov/oig
